TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Interim Results of the 2011 Filing Season



                                          March 31, 2011

                              Reference Number: 2011-40-032




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     HIGHLIGHTS


INTERIM RESULTS OF THE 2011 FILING                      First-Time Homebuyer Credits and
SEASON                                                  Non-Business Energy Property Credits.
                                                        In addition, the IRS has received returns from

Highlights                                              9,859 individuals claiming over $124 million in
                                                        Adoption Credits, with 6,974 (71 percent) of the
                                                        claims either having invalid, insufficient, or
Final Report issued on March 31, 2011                   missing documentation to support the legitimacy
Highlights of Reference Number: 2011-40-032             of these claims. The IRS did not act on our
to the Internal Revenue Service Commissioner            recommendation to seek authority to disallow
for the Wage and Investment Division.                   claims without proper documentation. As such,
                                                        each of these claims will be sent to its
IMPACT ON TAXPAYERS                                     Examination function.
The filing season is critical for the Internal          Furthermore, as of March 4, 2011, the IRS had
Revenue Service (IRS) because it is the time            identified 335,341 tax returns with $1.9 billion
when most individuals file their income tax             claimed in fraudulent refunds and prevented the
returns and contact the IRS if they have                issuance of $1.8 billion (97 percent) of those
questions about specific tax laws or filing             fraudulent refunds. The IRS also selected
procedures.                                             63,501 tax returns filed by prisoners for fraud
                                                        screening, representing an 88 percent increase
WHY TIGTA DID THE AUDIT                                 compared to last filing season.
The 2011 Filing Season involves the enactment           Finally, during visits to 26 different Taxpayer
of two significant tax laws, repayment of the           Assistance Centers between November 2010
First-Time Homebuyer Credit and the passage             and February 2011, assistors answered all
of late legislation. The IRS is also continuing         35 tax law questions accurately. However,
migrating electronic filing (e-filing) to the           auditors waited an average of 62 minutes before
Modernized e-File system to process individual          they received assistance and, on five occasions,
tax returns. The objective of this review was to        auditors who visited three different Centers were
provide selected information related to the IRS         turned away or denied services and asked to
2011 Filing Season results as of either                 return another day.
March 4 or March 5, 2011.
                                                        WHAT TIGTA RECOMMENDED
WHAT TIGTA FOUND
                                                        This report was prepared to provide interim
As of March 4, 2011, the IRS received nearly            information only. Therefore, no
60.5 million tax returns – 53.9 million                 recommendations were made in the report.
(89 percent) were e-filed and nearly 6.7 million
(11 percent) were filed on paper. The IRS has
issued nearly 52.6 million tax refunds totaling
approximately $161.3 billion.
The passage of late legislation resulted in the
IRS having Electronic Return Originators hold
approximately 6.5 million e-file tax returns to be
transmitted on February 14. In addition, the IRS
held approximately 100,000 paper tax returns
received prior to February 14.
Our review identified that several programming
errors resulted in the incorrect populating of the
IRS’s computer records. Programming errors
are also resulting in the issuance of erroneous
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 March 31, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Interim Results of the 2011 Filing Season
                               (Audit # 201140028)

 This report presents selected information related to the Internal Revenue Service (IRS)
 2011 Filing Season1 results as of either March 4 or March 5, 2011.2 As part of our Fiscal
 Year 2011 Annual Audit Plan, we are conducting a number of ongoing audits that are related to
 specific issues in this report.3 We will continue to provide IRS management with information on
 any areas of immediate concern throughout our audit process.
 This report was prepared to provide interim information only. Therefore, we made no
 recommendations in the report. However, we provided IRS management officials with an
 advanced copy of this report for review and comment prior to issuance.
 Please contact me at (202) 622-6510 if you have questions or Michael McKenney, Assistant
 Inspector General for Audit (Returns Processing and Account Services), at (202) 622-5916.




 1
   See Appendix VI for a glossary of terms.
 2
   Results were provided as of either March 4 or March 5, depending on the date the IRS reported the respective data.
 3
   See Appendix IV for a list of ongoing or planned audits relating to areas reported on in this interim report.
                                         Interim Results of the 2011 Filing Season




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Processing Tax Returns................................................................................. Page 4
          Implementing Provisions Included in New Tax Legislation
          Is Presenting Some Challenges ..................................................................... Page 9
          More Erroneous Refunds Are Being Detected and Stopped ........................ Page 14
          Providing Customer Service ......................................................................... Page 16

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 23
          Appendix II – Major Contributors to This Report ........................................ Page 26
          Appendix III – Report Distribution List ....................................................... Page 27
          Appendix IV – List of Related Treasury Inspector General
          for Tax Administration Reviews Ongoing or Planned ................................. Page 28
          Appendix V – List of Tax Forms and Schedules Processed
          Through the Modernized e-File System ....................................................... Page 29
          Appendix VI – Glossary of Terms ................................................................ Page 31
                        Interim Results of the 2011 Filing Season




                              Abbreviations

e-filed; e-file(ing)   Electronically filed; electronic filing
IRS                    Internal Revenue Service
MeF                    Modernized e-File
QMV                    Qualified Motor Vehicle
TIGTA                  Treasury Inspector General for Tax Administration
TY                     Tax Year
                                     Interim Results of the 2011 Filing Season




                                                 Background

The filing season1 is critical for the Internal Revenue Service (IRS) because it is during this time
that most individuals file their income tax returns and contact the IRS if they have questions
about specific tax laws or filing procedures. During
Calendar Year 2011, the IRS expects to receive
141 million individual income tax returns.                       The IRS expects to receive
                                                                 141 million individual tax
The IRS estimates that it will process 35 million paper       returns, which includes
and 106 million electronically filed (e-filed) tax returns    106 million (75 percent)
                                                                 e-filed tax returns.
and provide customer service assistance via telephone,
website, and face-to-face assistance to millions of
taxpayers. The IRS plans to process individual income tax returns at four Wage and Investment
Division Submission Processing sites during the 2011 Filing Season – Fresno, California;
Atlanta, Georgia; Kansas City, Missouri; and Austin, Texas.
One of the challenges the IRS confronts each year in processing tax returns is the
implementation of new tax law changes. Before the filing season begins, the IRS must identify
new tax law and administrative changes and, when possible, revise the various tax forms,
instructions, and publications. It must also reprogram its computer systems to ensure tax returns
are accurately processed. Problems with tax return processing could delay refunds, affect the
accuracy of accounts, and generate incorrect notices.
Significant tax law provisions impacting the 2011 Filing Season
•     Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of 20102 –
      Enacted on December 17, 2010, this law extends a number of tax deductions and credits,
      including extending the expansion of the Earned Income Tax Credit and the American
      Opportunity Tax Credit. This new legislation required the IRS to reprogram its processing
      systems for three provisions extended by the law – State and local sales tax deduction, higher
      education tuition and fees deduction, and educator expenses deduction. As a result,
      individuals who claim one or more of these three deductions or who itemize deductions on
      Itemized Deductions (Form 1040 Schedule A) were unable to file their tax returns until
      February 14, 2011. Based on historical filing patterns, the IRS anticipated the delay would
      impact approximately 9 million individuals.




1
    See Appendix VI for a Glossary of Terms.
2
    Pub. L. No. 111-312 124 Stat. 3296 (2010).
                                                                                              Page 1
                                    Interim Results of the 2011 Filing Season




•   Housing and Economic Recovery Act of 20083 – Enacted on July 30, 2008, this law requires
    individuals who purchased a home between April 9 and December 31, 2008, and claimed the
    First-Time Homebuyer Credit to begin repaying the credit on their Tax Year (TY) 2010 tax
    return. The credit is intended to be repaid over 15 years, in equal annual installments each
    tax year. More than 1.5 million individuals will be required to begin repaying the credit on
    their TY 2010 tax returns because their homes were purchased in 2008.
•   The Patient Protection and Affordable Care Act (Affordable Care Act)4 – Enacted on
    March 23, 2010, this law increased the Adoption Credit from $12,150 to $13,170 and made
    the tax credit refundable.5 The expansion of this credit is estimated to cost $600 million in
    Fiscal Year 2011.
The IRS continues to migrate e-filing of individual tax returns to the Modernized e-File
(MeF) system
The IRS first deployed the MeF system for individual tax returns during the 2010 Filing Season.
The IRS accepted individual income tax returns through the MeF system for processing
beginning February 17, 2010. The first phase of the MeF system for individual income tax
returns included the U.S. Individual Income Tax Return (Form 1040), Application for Automatic
Extension of Time to File U.S. Individual Income Tax Return (Form 4868), and 21 forms and
schedules related to the Form 1040 for TY 2009. For the 2010 Filing Season, the MeF system
processed approximately 8.6 million tax returns and extensions for both individual and business
taxpayers. However, only approximately 1 million of these tax returns were filed by individuals.
For the 2011 Filing Season, the MeF system does not provide for the filing of any additional tax
forms or schedules. The primary difference between the 2010 Filing Season release and the
2011 Filing Season release is the ability for individual taxpayers to file prior year tax returns.
Beginning with the 2011 Filing Season, the MeF system will be able to accept both TY 2009 and
TY 2010 tax returns, with the exception of Form 4868. Form 4868 can only be accepted for the
current tax year (TY 2010). Appendix V details specific tax forms and schedules that are
accepted by the MeF system for individual filers. For the 2011 Filing Season, the IRS began
accepting Form 1040, Form 4868, and the related forms and schedules through the MeF system
for processing on January 18, 2011. The IRS estimates approximately 80 million of the
individual income tax returns filed during the 2011 Filing Season would qualify for the MeF
system.




3
  Pub. L. No. 110-289 122 Stat. 2654 (2008).
4
  Pub. L. No. 111-148 124 Stat. 119 (2010).
5
  A refundable tax credit is a tax credit that is treated as a payment and can be refunded to the taxpayer by the IRS.
Refundable credits can create a Federal tax refund that is larger than the amount of money a person actually paid in
taxes during the year.
                                                                                                               Page 2
                                      Interim Results of the 2011 Filing Season




This report provides selected information relating to the progress of the 2011 Filing Season. We
have a number of additional audits that have been or will be initiated that relate to areas we have
reported on in our interim report.6 These interim 2011 Filing Season results are being presented
as of either March 4 or March 5, 2011.7 Later this year, we will issue the 2011 Filing Season
report, along with other Treasury Inspector General for Tax Administration (TIGTA) reports
covering many topics related to the filing season.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia; the Submission Processing function offices in Lanham, Maryland, and
Cincinnati, Ohio; the Electronic Tax Administration and Refundable Credits function in
Washington, D.C.; the Modernization and Information Technology Services organization
Headquarters in Lanham, Maryland; and the Austin, Texas, Submission Processing Site. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




6
    See Appendix IV for a list of ongoing or planned audits relating to areas reported on in this interim report.
7
    Results were provided as of either March 4 or March 5, depending on the date the IRS reported the respective data.
                                                                                                              Page 3
                                   Interim Results of the 2011 Filing Season




                                      Results of Review

Processing Tax Returns
The start of the 2011 Filing Season began on January 14, 2011, for the majority of individuals.
However, because of the late passage of the Tax Relief, Unemployment Insurance
Reauthorization, and Job Creation Act of 2010 (enacted December 17, 2010) individuals
claiming certain deductions or itemizing on Schedule A had to wait until February 14, 2011, to
file their individual tax returns. The delay impacted both individuals who file via paper and
e-file. The IRS reported that it had Electronic Return Originators hold approximately 6.5 million
e-file tax returns to be transmitted on February 14. In addition, as of February 11, 2011, the IRS
had received and held for processing approximately 100,000 paper tax returns.
In addition, the IRS recognized that the changes to the Adoption Credit could increase the risk of
erroneous claims and developed a strategy in an attempt to address these risks. This strategy
includes the IRS issuing guidance on September 29, 2010, requiring individuals to complete a
Qualified Adoption Expenses (Form 8839), as well as include one or more adoption-related
documents with their TY 2010 tax returns supporting the legitimacy of the claim. Because
specific documentation has to be attached to the tax return, individuals claiming the Adoption
Credit have to file paper tax returns.8
The IRS also has developed processes and procedures to assist individuals with the First-Time
Homebuyer Credit repayment requirements. Individuals who purchased a home between April 9
and December 31, 2008, and claimed the credit are required to begin repaying the credit on their
TY 2010 tax return. To assist these individuals, the IRS is issuing notices that detail repayment
requirements. These notices provide key information as to when individuals have to repay the
First-Time Homebuyer Credit. For example, during September and November 2010, the IRS
issued Notice CP03a, Repaying your First Time Homebuyer Credit, to 1.5 million individuals
who must repay the credit over 15 years, beginning in TY 2010. This notice will be sent to
individuals each year until the First-Time Homebuyer Credit is fully repaid. The notice lists the
amount of the credit the individuals received and the amount to be repaid as additional tax.
However, implementing some provisions included in the new tax legislation is presenting
challenges for the IRS. These challenges are resulting in delays in completing programming,
delays in the filing of tax returns with certain deductions, payments of erroneous claims, and the
inability to identify and prevent erroneous claims at the time tax returns are processed.


8
  The IRS is currently expanding individual tax return e-filing through its MeF system. Once this system replaces
the IRS’s Legacy System, individuals will be able to scan and include documents when e-filing.
                                                                                                            Page 4
                                        Interim Results of the 2011 Filing Season




 The IRS received nearly 60.5 million tax returns as of March 4, 2011. Of those, 53.9 million
 (89 percent) were e-filed and nearly 6.7 million (11 percent) were filed on paper (a decrease of
 over 30 percent from this time last year).9 In addition, nearly 52.6 million refunds totaling
 approximately $161.3 billion had been issued. Figure 1 presents a summary of tax return filing
 statistics as of March 4, 2011.
              Figure 1: Comparative Filing Season Statistics as of March 4, 2011

                                                                     2010                2011               %
 Cumulative Filing Season Data
                                                                    Actual              Actual            Change
 Individual Income Tax Returns
 Total Returns Received (in thousands)                                61,287              60,535            -1.2%
        Paper Returns Received (in thousands)                          9,688               6,672           -31.1%
        E-Filed Returns Received (in thousands)                       51,600              53,863             4.4%
          Practitioner Prepared                                       31,880              32,686             2.5%
          Home Computer                                               19,720              21,182             7.4%
          Free File (also included in Home Computer total)             1,832               1,610           -12.1%
          Fillable Forms (also included in Home Computer total)           135                172            27.9%
 Refunds
     Total Number Issued (in thousands)                               51,980              52,564             1.1%
     Total $ (in millions)                                         $160,186            $161,345              0.7%
     Average $                                                        $3,082              $3,070            -0.4%
     Total Number of Direct Deposits (in thousands)                   44,032              45,357             3.0%
     Total Direct Deposit $ (in millions)                          $143,600            $145,972              1.7%
Source: IRS 2011 Weekly Filing Season Reports. Totals and percentages may not compute to those presented due to
rounding.

 The e-filing rate is higher and use of fillable forms is increasing; however, use of
 the Free File Program continues to decrease
 This year marks the 21st year of e-filing, and the IRS is approaching one billion electronic tax
 returns processed since implementation. The IRS began receiving e-filed tax returns for
 TY 2010 on January 14, 2011. As of March 4, 2011, e-file volumes are 4.4 percent higher than
 the volumes for the same period in 2010. The biggest increase over last year (7.4 percent) is

 9
  The IRS anticipated receiving fewer tax returns early in the filing season due to some tax returns being held for
 processing until February 14, 2011.
                                                                                                              Page 5
                                     Interim Results of the 2011 Filing Season




from individuals e-filing their tax returns from home computers. In Calendar Year 2010, the
percentage of e-filed tax returns increased to 69.3 percent of the total individual income tax
returns received. The IRS anticipates that e-filing of tax returns will continue to grow. The total
e-file volumes are projected to increase in Calendar Year 2011 by about 8.3 percent (8.1 million),
partially due to the preparer mandate.10
In addition, for the third year, the IRS and its partners are offering Free File Fillable Tax Forms,
which opens up the Free File Program to nearly everyone, with no income limitations. Unlike
the 2010 Filing Season, more individuals are taking advantage of this filing option. Use of
Fillable Forms has increased to approximately 172,000, an increase of 27.9 percent from 2010.
However, participation in the Free File Program has decreased by 12.1 percent when compared
to the same period in 2010. The traditional IRS Free File Program is a free Federal online tax
preparation and e-filing program for eligible taxpayers developed through a partnership between
the IRS and the Free File Alliance LLC (a group of private-sector tax preparation companies).
The program enables eligible taxpayers to use commercial tax software for free, accessible only
through the IRS’s website, IRS.gov.

Key statistics relating to significant tax law provisions
Figure 2 provides volumes and dollars associated with the First-Time Homebuyer Credit and the
Adoption Credit as of March 4, 2011.
           Figure 2: Summarization of Repayments and Claims for the
 First-Time Homebuyer Credit and Claims for Adoption Credit as of March 4, 2011
                                                       Number of Individual
                                                        Taxpayers Affected           Amount Repaid/Claimed
                       Legislation                    Through March 4, 2011          Through March 4, 2011

       First-Time Homebuyer Credit
           •    Individuals Reporting Homebuyer                275,313                     $130 million
                Credit Installment Repayments
           •    Individuals Filing New Claims for               37,273                     $262 million
                the Homebuyer Credit

       Adoption Credit                                           9,859                     $125 million

     Source: TIGTA analysis of 2011 Filing Season tax return volumes through March 4, 2011.




10
   The preparer mandate is legislation that requires prepares who expect to file more than 10 individual tax returns to
file electronically in Calendar Year 2011. The IRS is phasing this legislation in through Calendar Year 2012.
                                                                                                               Page 6
                                      Interim Results of the 2011 Filing Season




Participation in the MeF system for individual tax returns is growing
Tax return transmitters and States are e-filing individual tax returns through the MeF system at a
higher rate than in 2010. Figure 3 provides a comparison of the number of transmitters and
States participating in the MeF system during the 2010 Filing Season and 2011 Filing Season for
individual tax returns.
          Figure 3: Comparison of MeF System Transmitters as of March 4, 2011

Number of Transmitters                                                  201011              2011        % Change
Total Return Transmitters                                                 22                   35          59%
Return Transmitters Participating in MeF
         Return Transmitters                                              11                   14          27%
         States                                                           11                   21          91%
Source: TIGTA analysis of 2011 MeF transmitter statistics through March 4, 2011.

As of March 4, 2011, the IRS had received over 3 million individual tax returns through the MeF
system. This represents a 225 percent increase over the total number of tax returns (1,049,000)
the IRS received through this system during the entire 2010 Filing Season. The IRS began
accepting individual tax returns through the MeF system approximately 30 days earlier than it
did last year. Figure 4 below provides a comparison of the volume of individual tax returns
transmitted as of March 4, 2011, to the total number of tax returns transmitted during the entire
2010 Filing Season.
                   Figure 4: Comparison of MeF System Tax Return Volumes

Number of Returns Processed                                  2010                      2011            % Change
                                                                                 As of March 4, 2011
Total Number Received (in thousands)                         1,049                     3,410             225%
        Number Accepted (in thousands)                            819                  2,939             258%
        Number Rejected (in thousands)                            230                    471             104%
Source: TIGTA analyses of filing season return volumes through March 4, 2011.

We plan to continue our evaluation of the IRS’s implementation of the MeF system, and we will
issue a separate audit report on the results.




11
     Data for the 2010 Filing Season is through April 15, 2010.
                                                                                                            Page 7
                               Interim Results of the 2011 Filing Season




Individuals have increased the use of the savings bond and split refund options
Beginning with the 2010 Filing Season, individuals had the ability to use their tax refunds to
purchase up to $5,000 in U.S. Series I Savings Bonds by requesting them on their tax return.
Individuals may request any portion of their tax refund that is an exact multiple of $50 be used to
purchase up to 3 savings bonds for themselves or other persons by simply filling out the
Allocation of Refund (Including Savings Bond Purchases) (Form 8888). Through
March 4, 2011, 16,418 individuals chose to convert tax refunds totaling over $4.3 million into
savings bonds. This represents a 19 percent increase over the number of individuals electing to
convert their tax refunds to savings bonds during the same period last filing season.
Individuals can still elect to have their Federal income tax refunds split and electronically
deposited in up to three accounts (e.g., checking, savings, or Individual Retirement
Arrangement) and may have up to three different U.S. financial institutions, including banks,
brokerage firms, or credit unions. Form 8888 must also be prepared for this option. As of
March 4, 2011, 525,001 individuals chose to split tax refunds totaling more than $2.3 billion
between 2 or 3 different checking and savings accounts. The number of individuals using the
split refund option increased 36 percent over the same period in 2010, and the amount of refunds
increased by almost 36 percent.

Taxpayers are electing to participate in a new option of receiving tax refunds as a
prepaid debit card
The U.S. Department of the Treasury launched a pilot program this tax season to offer
individuals a safe, convenient, and low-cost financial account for the electronic delivery of their
Federal tax refunds. The new account option holds the potential to streamline the tax
administration process. For the pilot, the Department of the Treasury mailed letters to
600,000 low- and moderate-income individuals nationwide. The letters invite these individuals
to consider activating a MyAccountCard Visa® Prepaid Debit Card in time to have their
TY 2010 Federal tax refund direct deposited to the card. MyAccountCard is a reloadable,
prepaid Visa® debit card that is accepted everywhere Visa® debit is accepted.
The letters mailed to individuals about the MyAccountCard contain information about the card’s
features, including free services and the fee structure for optional services. The information also
explains how to sign up and how to use the card to receive a Federal tax refund and conduct
everyday financial transactions. As part of the pilot, the Department of the Treasury will
randomly offer several different variations of the MyAccountCard in order to evaluate which
product features, fee structures, and marketing messages generate the greatest positive response
from taxpayers. The results of the pilot will help determine the benefits and feasibility of a card
account as an integrated part of the tax filing and refund process. We are working with the
Department of the Treasury to obtain information as to the number of individuals taking
advantage of this new option.


                                                                                             Page 8
                              Interim Results of the 2011 Filing Season




Implementing Provisions Included in New Tax Legislation Is
Presenting Some Challenges
Implementing some provisions included in legislation for the 2011 Filing Season required the
IRS to update many tax products and perform extensive computer programming in an effort to
ensure tax returns would be processed accurately. We selected for review 25 tax products
(13 tax forms, 5 instructions, and 7 publications) that required updating due to legislation. Our
review identified that 22 of the 25 tax products were updated clearly and accurately in
accordance with the new tax law provisions. The remaining three tax products were incorrect
when we reviewed them in draft form. Of the three that were incorrect, two had inaccurate
information and one had incorrect page number references. On December 20, 2010, we notified
the IRS of our concerns regarding the three tax products we identified as having inaccuracies and
inconsistencies. IRS management agreed to make revisions to these tax products, and the final
versions of all three tax products were accurate and consistent.
In addition, on February 9, 2011, we noticed that the tax products relating to the Adoption
Credit, including Form 8839 and the related instructions, were not available on the IRS’s website
(www.IRS.gov). We notified the IRS that day of our concerns regarding the delayed release of
these tax products, which could interfere with a taxpayer’s ability to claim the Adoption Credit in
a proper and timely manner. Subsequently, the IRS responded that Form 8839 had been posted
on February 9, 2011. The instructions for Form 8839 were later posted on February 17, 2011,
after the IRS had worked with IRS Counsel to approve the extensive changes that were made to
the separate instructions.

An IRS computer system incorrectly/incompletely reflects some credit/deduction
amounts
Our review of the processing of tax returns claiming credits or deductions resulting from the new
legislation has identified several programming errors resulting in the incorrect populating of the
IRS’s Individual Return Transaction File. Errors we have identified to date include:
•   Standard Deduction for Certain Filers (Form 1040, Schedule L) – The amount of the
    Motor Vehicle Sales Tax Deduction claimed by an individual who files a Schedule L is
    incorrectly being shown as a Real Estate Tax Deduction in an IRS computer system. It
    should be noted that the Real Estate Tax Deduction was not extended to individuals filing a
    TY 2010 tax return. We notified the IRS of the programming error. On March 21, 2011, we
    received IRS management’s response in regard to the Form 1040, Schedule L, programming.
    The IRS plans to implement new programming to correct Motor Vehicle Sales Tax
    Deduction from being shown as a Real Estate Tax Deduction by June 1, 2011.
•   Adoption Credit – The actual dollar amount an individual claims for the Adoption Credit is
    shown incorrectly in an IRS computer system. We notified the IRS of the programming
    error. On March 15, 2011, we received IRS management’s response in regard to the
                                                                                            Page 9
                                  Interim Results of the 2011 Filing Season




     Adoption Credit programming. The IRS implemented new programming on March 8, 2011,
     to correct the amount of the Adoption Credit claimed by individuals on IRS computer
     systems.
•    Mortgage Interest Credit (Form 8396) and Qualified Plug-in Electric Drive Motor
     Vehicle Credit (Form 8936) – The amount of the Mortgage Interest Credit claimed by an
     individual who files a Form 8396 is incorrectly being shown as a Qualified Plug-in Electric
     Drive Motor Vehicle Credit in an IRS computer system. Additionally, the amount of the
     Qualified Plug-in Electric Drive Motor Vehicle Credit claimed by an individual who files a
     Form 8936 is incorrectly being shown as the Mortgage Interest Credit in an IRS computer
     system. At the time of this report, we still have not received IRS management’s response to
     this programming error. We will continue to monitor these issues during the filing season.
•    First-Time Homebuyer Credit – The expected repayment amount fields are incorrect. As
     of March 4, 2011, our review identified 275,313 individuals who have reported installment
     payments totaling nearly $130 million for the First-Time Homebuyer Credit. This is a
     difference of over $3.3 million from what an IRS computer system is calculating. We also
     identified 2,764 individuals who were required to report $1.1 million in installment payments
     but did not. The IRS assessed $956,058 (86 percent) in additional taxes of the total
     $1.1 million due and a notice was issued to the individuals to advise them that the IRS
     calculated the repayment installment amount and adjusted the total tax on their tax return.
     The IRS developed a process to identify individuals who do not pay the required repayment
     amount. The IRS established an amount field12 on its computer systems, which is the amount
     the IRS is expecting the individual to report on First-Time Homebuyer Credit (Form 5405).
     When tax returns come in, the IRS matches what is paid to what was supposed to be paid. If
     a discrepancy exists the tax return is sent to Error Resolution. However, we identified that
     this amount field did not contain a repayment amount for most individuals with a repayment
     requirement (approximately 80 percent) whose tax return was processed during January 22
     through February 5, 2011. As a result, a large number of tax returns are being sent to Error
     Resolution as errors. We alerted the IRS on February 16, 2011, and the IRS responded that
     the programming is being revised; however, as of March 23, the IRS still has not corrected
     the programming problem. As of March 17, 2011, the IRS has assigned an error condition to
     313,950 tax returns where the repayment field does not agree with the IRS’s repayment
     amount. We will continue to monitor IRS processing of tax returns with First-Time
     Homebuyer Credit repayment requirements.




12
  The IRS calculates this amount based on 1/15th of the First-Time Homebuyer Credit amount received by the
individual.
                                                                                                       Page 10
                              Interim Results of the 2011 Filing Season




Incorrect programming is resulting in the issuance of erroneous First-Time
Homebuyer Credits and Non-Business Energy Property Credits
Taxpayers are continuing to erroneously receive First-Time Homebuyer Credit claims with
ineligible purchase dates
As of March 4, 2011, during the 2011 Filing Season, we identified 54 individuals who were
allowed $331,557 in erroneous First-Time Homebuyer Credits based on an ineligible purchase
date. We believe these resulted from tax examiner errors and are verifying this with the IRS.
In addition, we provided the IRS with a listing of 4,417 individuals that, during the period
May 30 through December 25, 2010, were allowed $27.8 million in erroneous First-Time
Homebuyer Credits. This is the period of time subsequent to our identification of erroneous
First-Time Homebuyer Credits during the 2010 Filing Season. We identified that:
•   2,812 individuals were allowed $16.4 million in erroneous First-Time Homebuyer Credits as
    long-time residents with purchase dates prior to November 6, 2009.
•   1,605 individuals were allowed $11.4 million in erroneous First-Time Homebuyer Credits
    with home purchase dates subsequent to the filing dates of the tax returns.
We alerted the IRS on February 23, 2011, of our concerns regarding the allowance of erroneous
First-Time Homebuyer Credits based on ineligible purchase dates. In response, the IRS agreed
to use third-party property records to verify whether the individuals identified by the TIGTA
were entitled to the credit by July 2011 and to continue identifying erroneous claims based on
ineligible purchase dates.
Individuals are erroneously claiming Non-Business Energy Property Credits in excess of the
limit
As of March 4, 2011, we have identified 51,185 individuals who erroneously claimed the
Non-Business Energy Property Credit for one main home in TY 2009 and again claimed it for
one main home in TY 2010. For the 2-year period, these individuals erroneously claimed in
excess of $34.4 million in Non-Business Energy Property Credits. Individuals may take a credit
up to 30 percent of the costs paid or incurred in TY 2010 for any qualifying energy-efficient
improvements and any residential energy property. The credit is limited to a total of $1,500 over
TYs 2009 and 2010.
We issued an Email Alert to the IRS on February 23, 2011, recommending that the IRS
immediately develop a process to prevent individuals from receiving more than the allowable
maximum amount of the Non-Business Energy Property Credit. We also recommended the IRS
initiate a recovery program for the 51,185 individuals the TIGTA identified that claimed over the
allowable maximum amount of the credit. At the time of this report, we still had not received
IRS management’s response. We will continue to monitor the IRS’s processing of tax returns
with Non-Business Energy Property Credits.

                                                                                         Page 11
                                   Interim Results of the 2011 Filing Season




Individuals are erroneously claiming Qualified Plug-in Electric Drive Motor Vehicle Credits
As of March 4, 2011, we determined that 166 (88 percent) of the 189 individuals claiming the
Qualified Plug-in Electric Drive Motor Vehicle Credit reported nonqualifying makes of vehicles.
The amount erroneously claimed totals $498,688, or 80 percent of all claims.
We identified this in a prior TIGTA report13 and recommended the IRS develop a process to
ensure individuals are not erroneously claiming vehicles with nonqualifying vehicle makes and
models. The IRS agreed with this recommendation and, for the 2011 Filing Season, IRS
examiners should be performing a review of the make and model of the vehicle claimed on each
Form 8936. We will continue to monitor the IRS’s processing of tax returns with
Qualified Plug-in Electric Drive Motor Vehicle Credits.
Indications that individuals may be erroneously claiming the Qualified Motor Vehicle
Deduction
As of March 4, 2011, we have identified 218,069 individuals claiming $315 million in Qualified
Motor Vehicle (QMV) Deductions. The circumstances for which individuals can claim a QMV
Deduction on their TY 2010 tax return, in our opinion, would be unusual and, as a result,
deductions should not involve a large number of individuals. For example, for TY 2010, an
individual may claim the QMV Deduction for a vehicle that was purchased in 2009 but for which
State and local sales taxes were paid after December 31, 2009. In other words, an individual
purchases a new vehicle in 2009, but does not pay sales or excise tax until 2010.
We alerted IRS management on February 23, 2011, of our concerns relating to the high volume
of QMV Deductions. The IRS responded that it will continue to identify individuals claiming
excessive deductions and has provided its research group with the Social Security Numbers of
the individuals we identified as having claimed the QMV Deduction in the 2011 Filing Season.
The IRS’s research group plans to do additional analysis to determine the validity of these
deductions. We will continue to monitor the IRS’s processing of tax returns with QMV
Deductions.
Authority to address Adoption Credit noncompliance is limited and processes do not ensure
individuals are not erroneously claiming amounts in excess of credit limits
Our analysis of the IRS’s Adoption Credit processing controls identified that although the IRS
requires individuals to attach documentation to their tax returns in support of adoptions, the IRS
does not have math error authority to deny Adoption Credits if documentation is not provided.
Without this authority, the IRS cannot deny the credit during processing of the tax return, but
must instead deny the credit post-processing, pre-refund, through the examination process, which
is much more costly and resource intensive.


13
  Individuals Received Millions of Dollars in Erroneous Plug-in Electric and Alternative Motor Vehicle Credits,
(Reference Number 2011-41-011, dated January 21, 2011.
                                                                                                         Page 12
                               Interim Results of the 2011 Filing Season




On October 29, 2010, we issued an Email Alert and recommended that the IRS work with the
Department of the Treasury to make a request for such authority from Congress. However, the
IRS did not agree with this recommendation. The IRS responded that it has developed and
implemented sufficient filters and compliance tools to handle potential Adoption Credit fraud.
These filters and compliance tools include identifying tax returns which do not meet specific
requirements for claiming the adoption credit. All tax returns not meeting one or more of these
requirements will be sent to the Examination function for review.
While we agree that such actions are necessary, referring the cases to Examination in lieu of
obtaining math error authority will result in delays and additional taxpayer burden. As of
March 4, 2011, the IRS has received 9,859 individual claims for more than $124 million in
Adoption Credits. Of the 9,859 Adoption Credit claims, 6,974 (71 percent) of the claims either
had no required documentation attached to the tax return or the documentation was either invalid
or insufficient. According to IRS procedures, each of these claims will be sent to the
Examination function for further review. We will continue to monitor the IRS’s processing of
tax returns with Adoption Credit claims.
Individuals are claiming Adoption Credits in excess of allowed amounts
We identified 1,081 individuals who claimed Adoption Credits for the same child that exceed the
allowable amount. These individuals erroneously received more than $3.9 million in Adoption
Credits for 1,081 children. Although the IRS has a process to ensure individuals do not claim in
excess of the allowed amount in any one tax year, prior to this filing season, the IRS did not have
a process to ensure individuals do not claim in excess of the allowed amount when claiming the
same child over multiple tax years.
Prior to the 2011 Filing Season, the Adoption Credit was a nonrefundable credit. Therefore, the
amount of the credit was limited to the amount of the tax liability on the tax return. If the credit
exceeded the amount of the tax liability, an individual was allowed to carry this amount to the
next 5 tax years or until used, whichever comes first. The maximum amount of the credit for
TY 2009 was $12,150 for each child. For the 2011 Filing Season, individuals can still carryover
any unused Adoption Credit amounts to their TY 2010 tax returns. However, unlike prior years,
the credit is now refundable, so the individual will get the entire amount of the carried-over
Adoption Credit that exceeds the amount of the tax liability on the tax return. For example:
       Taxpayer A is allowed to claim the credit for qualified adoption expenses up to $11,390
       for TY 2007, up to $11,650 for TY 2008, and up to $12,150 for TY 2009 for the same
       child. For TY 2007, Taxpayer A received $11,390 for qualified adoption expenses for
       one child. In TY 2008, Taxpayer A again received $11,650 for qualified adoption
       expenses for the same child, plus $15,000 carried forward from TY 2007. In TY 2009,
       Taxpayer A received $12,150 for the same child, plus $20,000 carried forward from
       TY 2008. In total, Taxpayer A received $70,190 in Adoption Credit for the same child,
       when Taxpayer A was only entitled to a maximum of $12,150 for the child.

                                                                                            Page 13
                                 Interim Results of the 2011 Filing Season




We issued an Email Alert to the IRS on February 17, 2011, and recommended that the IRS
develop a process to prevent individuals from receiving more than the allowable maximum
amount of the Adoption Credit for each child when claiming the credit over multiple tax years.
The IRS responded that it had examination filters in place to address individuals claiming more
than the allowable amount after the first year of an Adoption Credit claim. The filter is
programmed to look back to the prior 5 years (since the individual can carry forward up to
5 years) to determine the total Adoption Credit expenses claimed for the same child. In
December 2010, the IRS only identified 497 individuals of the 1,081 we identified. It did not
identify the remaining 584 individuals with claims totaling more than $1.8 million in Adoption
Credits. We will continue to identify individuals claiming erroneous Adoption Credits.

More Erroneous Refunds Are Being Detected and Stopped
Unscrupulous individuals continue to submit tax returns with false income documents to the IRS
for the sole purpose of receiving a fraudulent refund from the Government. As of
March 4, 2011, the IRS had identified 335,341 tax returns with $1,881,329,757 being claimed in
fraudulent refunds and prevented the issuance of $1,819,801,718 (97 percent) of the fraudulent
refunds being claimed. This represents a 181 percent increase in the number of tax returns
identified as of this period last processing year.
Figure 5 shows the number of fraudulent tax returns identified by the IRS for Processing
Years 2008 through 2010, as well as the refund amounts that were claimed and stopped.
                   Figure 5: Fraudulent Returns and Refunds Identified
                       and Stopped in Processing Years 2008–2010
                    Number of                                       Amount of
                    Fraudulent              Number of               Fraudulent           Amount of
  Processing      Refund Returns        Fraudulent Refund             Refunds            Fraudulent
     Year            Identified          Returns Stopped             Identified       Refunds Stopped
     2008              380,656                 306,128            $1,959,992,377       $1,683,912,973
     2009              457,369                 369,257            $2,988,945,590       $2,517,094,116
      2010              971,511                    881,303           $7,300,996,194    $6,931,931,314
 Source: IRS fraudulent return statistics for Processing Years 2008–2010.

Individual tax returns are sent through the IRS’s Electronic Fraud Detection System and receive
a data-mining score based on the characteristics of the tax return and other data. For those tax
returns meeting a certain score, the tax return is sent to an IRS tax examiner to screen the tax
return for fraud potential. If a tax return is selected for further verification, the tax refund is held
until employers or third parties are contacted to verify wage information on the tax return. If the
verification process is not completed within a certain time period, the tax refund is automatically
released. In general, if the employee concludes that a tax return contains false information
(e.g., false or inflated wages) the tax return is either resolved in the Accounts Management
                                                                                                Page 14
                                   Interim Results of the 2011 Filing Season




function or referred to one of the Examination functions14 for resolution. Tax returns with
refundable credits, such as the Earned Income Tax Credit, and tax returns for which the refunds
were issued must be sent to the Wage and Investment Division’s Examination function because
the law requires the IRS to follow deficiency procedures before making an assessment in these
cases.

Screening of prisoner tax returns has increased significantly
In a prior TIGTA review15 assessing the IRS fraudulent tax return screening process, we reported
that the majority of tax returns identified as being filed by prisoners are not sent to a tax
examiner for screening to assess the potential that the tax return is fraudulent. As of
March 4, 2011, the IRS had selected 63,501 tax returns filed by prisoners for screening. This
represents an 88 percent increase in the number of prisoner tax returns identified as of this period
last processing year that were sent to a tax examiner to assess fraud potential. Figure 6 shows a
comparison of the number of tax returns filed by prisoners that were sent to a tax examiner for
screening as of the first week in March for Processing Years 2010 and 2011.
                  Figure 6: Prisoner Tax Returns Identified for Screening
                in Filing Seasons 2010–2011 (as of the first week in March)
                                         Number of Prisoner
                    Processing          Tax Returns Identified          Increase from Prior
                       Year                 for Screening                      Year
                        2010                    33,691

                         2011                  63,501                             88%
                Source: IRS fraudulent return statistics for Processing Years 2010–2011 as of the
                 first week in March.




14
   According to the referral procedures, fraudulent refund returns are forwarded to either the Wage and Investment
Division Examination function or the Small Business/Self-Employed Division Examination function. The majority
of fraudulent refund returns are forwarded to the Examination function in the Wage and Investment Division. For
purposes of this report, we will use the generic “Examination functions,” unless we need to refer to a specific
Division for clarification.
15
   Expanded Access to Wage and Withholding Information Can Improve Identification of Fraudulent Tax Returns
(Reference Number 2010-40-129, dated September 30, 2010).
                                                                                                         Page 15
                                    Interim Results of the 2011 Filing Season




Providing Customer Service
Taxpayers have several options to choose from when they need assistance from the IRS,
including telephone assistance through the toll-free telephone lines, face-to-face assistance at the
Taxpayer Assistance Centers and Volunteer Program sites, and self-assistance through IRS.gov.

Face-to-face assistance at the Taxpayer Assistance Centers
The Taxpayer Assistance Centers are walk-in sites where taxpayers can obtain answers to both
account and tax law questions, as well as receive assistance in preparing their tax returns. The
IRS plans to assist more than 6.5 million taxpayers in Fiscal Year 2011. Between
October 1, 2010, and February 26, 2011, the Taxpayer Assistance Centers had served 2.3 million
walk-in taxpayers, which includes 1.2 million walk-in taxpayers for the 2011 Filing Season.
According to the IRS, 76 percent of the taxpayers who waited to speak to assistors at the
225 Taxpayer Assistance Centers that track wait time waited fewer than 30 minutes.
Figure 7 shows the number of contacts by product line at the Taxpayer Assistance Centers for
Fiscal Years 2008 through 2011.
                         Figure 7: Contacts for Fiscal Years 2008–2011
                                         (in millions)

                                                                      Fiscal Year
          Contacts/Product Lines
                                                                                                2011
                                                   2008           2009           2010        Projections
          Tax Accounts Contacts                     3.2              3.2          3.5             3.7
          Forms Contacts                            1.0              0.8          0.7             0.6
                           16
          Other Contacts                            1.5              1.5          1.5             1.5
          Tax Law Contacts                          0.6              0.3          0.3             0.3
          Tax Returns Prepared                      0.6              0.4          0.4             0.4

          Totals                                    6.9              6.2          6.4             6.5
         Source: IRS management information reports.




16
  Other Contacts includes U.S. Departing Alien Income Tax Statement (Form 2063), date-stamping tax returns
brought in by taxpayers, screening taxpayers for eligibility of service, scheduling return preparation appointments,
and helping taxpayers with general information such as addresses and directions to other IRS offices or other
Federal Government agencies.
                                                                                                             Page 16
                                  Interim Results of the 2011 Filing Season




In Fiscal Year 2007, the IRS implemented a standardized quality measurement system to
measure the quality of taxpayer service at its Taxpayer Assistance Centers. Fiscal Year 2007
was the baseline year. As shown in Figure 8, the accuracy rates are above 80 percent.
                   Figure 8: Accuracy Rates for Fiscal Years 2008–2011

                       100%
                        95%                                     91%           91%
                        90%                      87%
                                    83%                                       82%
                        85%                                     81%
                        80%                      75%
                        75%
                                    69%
                        70%
                        65%
                                Fiscal Year   Fiscal Year    Fiscal Year   Fiscal Year
                                   2008          2009           2010          2011*

                                           Tax Law          Tax Accounts

                    Source: IRS management information reports. *=Projected.

As part of a 2011 Filing Season audit to assess the quality of customer service the IRS provides
to taxpayers who seek assistance when filing their tax returns,17 auditors posed as taxpayers and
made 40 visits to 26 Taxpayer Assistance Centers to ask tax law questions and use the Facilitated
Self-Assistance kiosks.
Taxpayer Assistance Center assistors provided accurate answers, but auditors waited on
average 1 hour to speak with an assistor
During visits to 26 different Taxpayer Assistance Centers between November 2010 and
February 2011, assistors answered all 35 tax law questions accurately. However, auditors waited
an average of 62 minutes before they received assistance. The wait times ranged from no wait
time to 4 hours. On five occasions, auditors who visited three different Taxpayer Assistance
Centers were turned away or denied services and asked to return another day.
The IRS is piloting the Facilitated Self-Assistance kiosks at some Taxpayer Assistance Centers,
but they were available in only three Taxpayer Assistance Centers visited. Nevertheless, in only
one instance were auditors allowed to use the service. IRS management stated employees were
in the process of learning the system at the time of our visits.


17
  Taxpayer Experience (Followup), Audit Number 201140008, to determine the quality of customer service the IRS
provides to taxpayers who seek assistance when filing their tax returns; for example, assistance received from
Taxpayer Assistance Centers, Toll-Free Telephone, Volunteer Programs, and IRS.gov.
                                                                                                     Page 17
                                  Interim Results of the 2011 Filing Season




Not all forms and publications were available
Forms and publications were not always available at Taxpayer Assistance Centers visited during
January and February 2011. Twenty-five to 40 percent of the shelves holding the forms and
publications were empty. Among the most notable forms and publications missing were
Forms 1040 and 1040A and the related instructions, Your Federal Income Tax (For Individuals)
(Publication 17), and many Spanish forms and publications.
The IRS had to delay the printing of many forms because of the late passage of legislation.18
These included Forms 1040 and 1040A and the related instructions.
New screening guidelines and procedures
Thirty-six of our 40 visits to Taxpayer Assistance Centers were made after new guidelines for
Taxpayer Assistance Centers were established in January 1, 2011. The new guidelines require
that assistors ask for a taxpayer’s identification and Social Security Number for authentication
purposes before they can provide assistance.
For 32 of the 36 visits for which auditors were provided service,19 Taxpayer Assistance Center
employees asked for the auditors’ identification and Social Security Number before providing
them service in only 7 (22 percent) of 32 instances. They did not follow procedures for the
remaining 25 visits. Either they did not ask for any identification or they asked for one or the
other, but not both the identification and Social Security Number.
These are new procedures, and screeners and assistors do not always remember to follow them.
Additionally, not all assistors are comfortable with the new requirement. The IRS is
reconsidering this requirement and plans to make changes during Fiscal Year 2011.
Auditors were not able to schedule appointments to visit the Taxpayer Assistance Centers
The IRS states that taxpayers can make appointments at a Taxpayer Assistance Center if the
taxpayer has an ongoing, complex tax account problem or a special need, such as a disability.
All other issues are to be handled without an appointment.
However, auditors attempted to schedule appointments at 23 Taxpayer Assistance Centers
between October 2010 and January 2011. Auditors called the telephone numbers provided on
IRS.gov and left messages, stating they had the following issues:
     •   9 appointments were requested for a complex tax issue involving multiple tax years.
     •   5 appointments were requested because the auditor stated he or she was physically
         disabled.


18
   On December 17, 2011, the President signed the Tax Relief, Unemployment Insurance Reauthorization, and Job
Creation Act of 2010.
19
   For three visits, the auditors were turned away and asked to return another day.
                                                                                                      Page 18
                                    Interim Results of the 2011 Filing Season




     •   4 appointments were requested because he or she claimed to live 3 hours from the nearest
         Taxpayer Assistance Center.
     •   5 appointments were requested because the auditor stated he or she had twin babies that
         made it difficult to wait.
Of the 23 calls to Taxpayer Assistance Centers to schedule appointments:
     •   9 (39 percent) would not schedule appointments.
     •   7 (30 percent) did not return the calls.
     •   6 (26 percent) scheduled appointments.
     •   1 (4 percent) left a message, but the auditor was unavailable.
The managers who returned the calls and would not schedule appointments stated, for example:
     •   There was only one assistor working at that particular Taxpayer Assistance Center. IRS
         procedures state that Taxpayer Assistance Centers with only one assistor are not required
         to make appointments unless a taxpayer has a disability.
     •   The Taxpayer Assistance Center is a walk-in office and they do not schedule
         appointments and/or an appointment was not necessary.
     •   The auditor could call the toll-free telephone line or come to the Taxpayer Assistance
         Center without an appointment.

Toll-free telephone assistance
As of March 5, 2011, approximately 39 million taxpayers contacted the IRS by calling the
various Customer Account Services function20 toll-free telephone assistance lines21 seeking help
in understanding the tax law and meeting their tax obligations.22 The IRS planned to answer
7.4 million assistor calls (1.2 million fewer planned assistor calls during the 2011 Filing Season
than the 8.6 million Assistor Calls Answered during the 2010 Filing Season) and planned to
achieve a 70.9 percent Level of Service and 681 second (11.4 minutes) Average Speed of
Answer. As of March 5, 2011, IRS assistors have answered 8.4 million calls and have achieved
a 71.7 percent Level of Service and a 634 second (10.6 minutes) Average Speed of Answer.



20
   The Director, Customer Account Services, Wage and Investment Division, manages tax law and account
telephone calls through the Joint Operations Center.
21
   The IRS refers to the suite of 26 telephone lines to which taxpayers can make calls as “Customer Account
Services Toll-Free.”
22
   Toll-free telephone assistance data presented in this report were taken from available IRS reports through the
week ending March 5, 2011, and comparable periods for prior years.
                                                                                                             Page 19
                                    Interim Results of the 2011 Filing Season




Figure 9 presents a year-to-date comparison of select toll-free telephone system measures and
service indicators.
     Figure 9: Comparative Toll-Free Performance Measures and Service Indicators
                 for the 2008-2011 Filing Seasons as of March 5, 201123

                                                2008               2009                2010               2011



 Level of Service                             79.5%               58.8%              73.9%               71.7%
 Average Speed of Answer
                                                 327                 586                599                 634
 (seconds)
 Automated Calls Answered
                                                 12.4               15.0                16.7               20.3
 (millions)
 Customer Account Services
 Assistor Calls Answered                          8.4               10.1                 8.6                 8.4
 (millions)
 Customer Account Services
 Assistor Services Provided                       9.9               11.6                10.2               10.1
 (millions)
 Service Abandon Rate                         16.5%               36.6%              21.0%               23.0%
 Average Handle Time (seconds)                   607                 575                648                 639
 Assistor Availability                          4.9%               4.7%                5.7%               6.3%
                      24
 Primary Abandons (millions)                      4.3                7.0                 6.1                 6.6
                           25
 Secondary Abandons (millions)                    1.8                3.4                 2.6                 2.7
 Total Blocked Calls (millions)                   0.5                3.9                 0.7                 0.8
Source: IRS Enterprise Telephone Data Warehouse.

The IRS expected to increase its telephone Level of Service goal to 75 percent based on an
$11.9 million program increase and a $9 million reallocation from other IRS programs.
However, the program increase and reallocation did not materialize since the IRS is currently
operating under a continuing resolution. Thus, the 2011 Filing Season and Fiscal Year 2011
Level of Service goals are both 71 percent. The IRS has developed several plans with Level of
Service goals ranging from 71 through 78 percent to try to surpass these 2011 goals.


23
   Data will not match the data in the prior issued Interim Filing Season audit reports because the IRS adjusts the
data for comparable periods.
24
   A primary abandon occurs when a call is disconnected before reaching the queue.
25
   A secondary abandon occurs when a caller gains access into the queue and then hangs up while waiting in the
queue for the next available assistor.
                                                                                                             Page 20
                                 Interim Results of the 2011 Filing Season




Tax preparation assistance at Volunteer Program sites
The Volunteer Program plays an increasingly important role in the IRS’s efforts to improve
taxpayer service and facilitate participation in the tax system. It provides no-cost Federal tax
return preparation and e-filing to underserved taxpayer segments, including low-income, elderly,
disabled, and limited-English-proficient taxpayers. These taxpayers are frequently involved in
complex family situations that make it difficult to correctly understand and apply tax law.
We plan to visit 39 Volunteer Income Tax Assistance and Tax Counseling for the Elderly sites to
determine if taxpayers receive quality service, including accurate preparation of their individual
income tax returns. We developed scenarios designed to test quality controls and training the
volunteers received in preparation of the 2011 Filing Season. The scenarios require a
determination of the Making Work Pay Credit, Retirement Savings Contribution Credit, Health
Savings Account deduction, and Educator Expense. In addition, one scenario addresses Profit or
Loss From Business (Schedule C) and self-employment tax.
As of March 5, 2011, we had 15 tax returns prepared with a 60 percent accuracy rate, which is
lower than the 86 percent accuracy rate we reported during the same time period for the 2010
Filing Season. We will report our final results in August 2011. Figure 10 presents comparisons
of Volunteer Program activities for the 2008 through 2011 Filing Seasons.
                         Figure 10: Year-to-Date Comparisons of the
                           2008–2011 Filing Seasons (in millions)26

                                         2008 Actual     2009 Actual    2010 Actual     2011 Actual

        Volunteer Return Preparation
                                              1.5             1.5            1.5             1.5
        (in millions)
        Volunteer E-Filing                  96.8%           97.9%           98.5%          98.7%
       Source: IRS 2008 through 2011 Filing Season Weekly Reports .

The IRS continues to use the Quality Statistical Sample cadre to measure the quality of tax
returns prepared by the Volunteer Program. The cadre reviewers initiated a statistically valid
sample of Volunteer Program sites, the results of which formed a benchmark of volunteer-
prepared tax return accuracy for the 2009 Filing Season. The approach required that reviewers at
each site review randomly selected tax returns, comparing the return information with supporting
documentation, including end-of-year earning statements and information the taxpayer provided
the volunteer during the mandated intake and screening process. Each year, the combined results
of all the return review visits are considered the formal measure of Volunteer Program-prepared


26
  The 2008 and 2009 Filing Seasons are weeks ending March 7, and the 2010 and 2011 Filing Seasons are weeks
ending March 5.
                                                                                                     Page 21
                                   Interim Results of the 2011 Filing Season




tax returns. For the 2010 Filing Season, the cadre reviews concluded that 85 percent of the tax
returns prepared by volunteers were accurate.

Self-assistance through IRS.gov
As of March 5, 2011, the IRS had reported a 9.2 percent increase in the number of visits to
IRS.gov over the same period in the prior filing season. It had also reported a 17.4 percent
increase in the number of taxpayers obtaining their refund information online via the “Where’s
My Refund” option found on IRS.gov. Figure 11 shows the year-to-date comparisons of various
IRS.gov activity levels for the 2008 through 2011 Filing Seasons.
                         Figure 11: Year-to-Date Comparisons of the
                           2008–2011 Filing Seasons (in millions)27
                                                                                                % Change
                        2008 Actual       2009 Actual       2010 Actual       2011 Actual
                                                                                                From 2010
IRS.gov Visits              90.7              116.8             109.7            119.8             9.2%
“Where’s My
                            21.2               33.5             36.9              43.3             17.4%
Refund?”
Source: The IRS’s WebTrends database and IRS 2008–2011 Filing Season Weekly Reports. Totals may not
compute to those presented due to rounding.




27
  The 2008 and 2009 Filing Seasons are through the weeks ending March 7, 2009; the 2010 and 2011 Filing
Seasons are through the weeks ending March 5, 2011.
                                                                                                     Page 22
                                     Interim Results of the 2011 Filing Season




                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide selected information related to the IRS
2011 Filing Season1 results as of March 4, 2011. To accomplish our objective, we:
I.         Identified new tax legislation for the 2011 Filing Season that will have the greatest
           potential affect on individual taxpayers.
           A. Reviewed tax forms, instructions, and publications to determine whether they were
              accurately updated with the changes.
           B. Reviewed tax return processing procedures and change documentation to determine
              whether adequate controls were included to accurately process the new tax provisions
              during tax return processing.
II.        Determined the volumes of individual tax returns the IRS is expecting to receive during
           the 2011 Filing Season by obtaining and reviewing the Calendar Year Projections of
           Individual Returns by Major Processing Categories (Document 6187), Fall 2010 Update,
           produced by the IRS Office of Research.
III.       Identified volumes of paper and e-filed returns received through March 5, 2011, from the
           IRS Weekly Filing Season reports that provide a year-to-date comparison of scheduled
           return receipts to actual return receipts. The reports also provide a comparison to 2010
           receipts for the same time period.
IV.        Determined the interim results of the implementation of the MeF individual tax return
           system.
           A. Identified volumes of tax returns transmitted to and accepted by the MeF system for
              processing using the IRS Daily E-File reports that provide a year-to-date comparison
              of accepted and transmitted tax returns.
           B. Identified the volume of tax returns rejected by the MeF system using the Daily MeF
              Error Codes report to monitor reject volumes.
V.         Determined whether the IRS correctly implemented new tax legislation that affected the
           processing of individual tax returns during the 2011 Filing Season. We used computer
           analysis of 100 percent of the TY 2010 individual income tax returns processed
           nationally on the Individual Return Transaction File between January 1 and


1
    See Appendix VI for a glossary of terms.
                                                                                               Page 23
                                   Interim Results of the 2011 Filing Season




        March 4, 2011,2 to identify returns affected by recent tax legislation and determined if
        they were processed correctly. We electronically identified:
        A. 275,313 individuals making installment payments on the First-Time Homebuyer
           Credit (Form 5405) through March 4, 2011, and 37,273 individuals claiming the
           First-Time Homebuyer Credit through March 4, 2011.
        B. 9,859 individuals claiming an Adoption Credit on Qualified Adoption Expenses
           (Form 8839) through March 4, 2011.
        C. 2,118,118 individuals claiming a Non-Business Energy Credit on the Residential
           Energy Credits (Form 5695).
        D. 1,032 e-filed tax returns processed with electric plug-in vehicle credits on Qualified
           Plug-in Electric and Electric Vehicle Credit (Form 8834), Alternative Motor Vehicle
           Credit (Form 8910), and Qualified Plug-in Electric Drive Motor Vehicle Credit
           (Form 8936) through March 4, 2011.
VI.     Identified the interim results for the Wage and Investment Division’s Accounts
        Management function fraudulent tax return statistics.
        A. Obtained the Questionable Refund Program Workload Comparison Summary Report
           as of March 4, 2011, to identify the interim IRS fraudulent tax return statistics for the
           2011 Filing Season.
        B. Obtained the Questionable Refund Program Workload Comparison Summary Report
           for Processing Year 2010 and reviewed a prior TIGTA report3 to obtain IRS
           fraudulent tax return statistics and determine the number of erroneous refunds
           identified and stopped for Processing Years 2008 through 2010.
VII.    Identified interim results for the IRS Taxpayer Assistance Center Program.
        A. Obtained from the IRS Field Assistance Office statistics on taxpayers served at the
           Taxpayer Assistance Centers.
        B. Reviewed the IRS Weekly Filing Season Report, which provides a year-to-date
           comparison of various Taxpayer Assistance Center activity levels for the 2009 and
           2010 Filing Seasons, through March 5, 2011.
        C. Reviewed data from Field Assistance Office management information system.

2
  To assess the reliability of computer-processed data, programmers in the TIGTA Office of Information Services
validated the data that were extracted and we verified the data with appropriate documentation. Judgmental samples
were selected and reviewed to ensure that the amounts presented were supported by external sources. As
appropriate, data in the selected data records were compared to the physical tax returns to verify that the amounts
were supported.
3
  Interim Results of the 2009 Filing Season (Reference Number: 2009-40-058, dated March 30, 2009).
                                                                                                          Page 24
                                  Interim Results of the 2011 Filing Season




        D. Visited 26 of 401 Taxpayer Assistance Centers to ask tax law questions. We
           judgmentally selected the Taxpayer Assistance Centers to ensure we equally
           represented all geographic locations and minimized travel costs.
        E. Judgmentally selected 23 of 401 Taxpayer Assistance Centers to call and request an
           appointment at the Taxpayer Assistance Center.
VIII.   Identified interim results for the IRS Toll-Free Telephone Assistance Program by
        reviewing Performance Templates and Executive Level Summary reports from the
        Enterprise Telephone Data Warehouse for results as of March 5, 2011.
IX.     Identified interim results for the Volunteer Program by reviewing interim results from
        TIGTA visits to Volunteer Program sites. A total of 15 tax returns had been prepared as
        of March 5, 2011.4
X.      Identified interim results for IRS self-assistance through IRS.gov from the IRS Weekly
        Filing Season Report of IRS.gov activity levels for the 2010 and 2011 Filing Seasons,
        through March 5, 2011.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the processes for planning, organizing,
directing, and controlling program operations for the 2011 Filing Season. We also evaluated the
controls that are incorporated directly into computer applications to help ensure the validity,
completeness, accuracy, and confidentiality of transactions and data during application
processing of tax returns for the 2011 Filing Season.




4
 Quality of Services at Volunteer Program Sites During the 2011 Filing Season - Followup
(Audit Number 201140006).
                                                                                           Page 25
                            Interim Results of the 2011 Filing Season




                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Russell Martin, Director
Deann Baiza, Audit Manager
Lena Dietles, Audit Manager
Wilma Figueroa, Audit Manager
Ed Gorman, Audit Manager
Paula Johnson, Audit Manager
Tina Parmer, Audit Manager
Jean Bell, Senior Auditor
Sharon Buford, Senior Auditor
Gwendolyn Gilboy, Senior Auditor
Tracy K. Harper, Senior Auditor
Kathleen Hughes, Senior Auditor
Sharla Robinson, Senior Auditor
Geraldine Vaughn, Senior Auditor
Van Warmke, Senior Auditor
Lawrence White, Senior Auditor
Evan Close, Auditor
Denise Gladson, Auditor
Crystal Hamling, Auditor
Linna Hung, Auditor
Kim McMenamin, Auditor
Brian Hattery, Senior Information Technology Specialist
Martha Stewart, Senior Information Technology Specialist
Michele Cove, Information Technology Specialist




                                                                                    Page 26
                            Interim Results of the 2011 Filing Season




                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                     Page 27
                                 Interim Results of the 2011 Filing Season




                                                                                          Appendix IV

      List of Related Treasury Inspector General for
     Tax Administration Reviews Ongoing or Planned

2011 Filing Season Implementation (Audit Number 201140029)
    Audit Objective: Evaluate whether the IRS timely and accurately processes individual
    paper and e-filed tax returns during the 2011 Filing Season.
Processing Individual Income Tax Returns Transmitted Through the Modernized e-File
System (Audit Number 201140030)
    Audit Objective: Evaluate the continued implementation of the MeF system to determine if
    individual income tax returns will be accurately and timely processed and whether sufficient
    progress is being made to replace Legacy e-file for individual tax returns in
    Processing Year 2013.
Toll-Free Access During the 2011 Filing Season (Audit Number 201140002)
    Audit Objective: Evaluate customer service toll-free telephone access during the
    2011 Filing Season. We will also determine the effectiveness of the Toll-Free Customer
    Service surveys.1
Taxpayer Experience – Followup (Audit Number 201140008)
    Audit Objective: Determine the quality of customer service the IRS provides to taxpayers
    who seek assistance when filing their tax returns, for example assistance received from
    Taxpayer Assistance Centers, Toll-Free Telephone, Volunteer Programs, and IRS.gov.
Quality of Services at Volunteer Program Sites During the 2011 Filing Season – Followup
(Audit Number 201140006)
    Audit Objective: Determine whether taxpayers visiting Volunteer Program sites receive
    quality service, including accurate tax return preparation.
Process to Ensure Repayment of the First-Time Homebuyer Credit (Audit Number 201040107)
    Audit Objective: Assess the IRS’s efforts to ensure accurate and timely repayment of the
    First-Time Homebuyer Credit.



1
 Toll-Free Telephone Access Exceeded Expectations, but Access for Hearing- and Speech-Impaired Taxpayers
Could Be Improved (Reference Number 2010-40-108, dated September 8, 2010).
                                                                                                    Page 28
                             Interim Results of the 2011 Filing Season




                                                                             Appendix V

        List of Tax Forms and Schedules Processed
           Through the Modernized e-File System

Form 1040 – U.S. Individual Income Tax Return
Schedule A – Itemized Deductions
Schedule B – Interest and Ordinary Dividends
Schedule C – Profit or Loss From Business
Schedule D – Capital Gains and Losses
Schedule E – Supplemental Income and Loss
Schedule EIC – Earned Income Credit
Schedule M – Making Work Pay Credit
Schedule R – Credit for the Elderly or the Disabled
Schedule SE – Self-Employment Tax
Form 1099-R – Distributions From Pensions, Annuities, Retirement or Profit-Sharing Plans,
IRAs, Insurance Contracts, etc.
Form 2106 – Employee Business Expenses
Form 2210 – Underpayment of Estimated Tax by Individuals, Estates, and Trusts
Form 2441 – Child and Dependent Care Expenses
Form 4562 – Depreciation and Amortization
Form 4868 – Application for Automatic Extension of Time to File U.S. Individual Income Tax
Return
Form 8283 – Noncash Charitable Contributions
Form 8812 – Additional Child Tax Credit
Form 8829 – Expenses for Business Use of Your Home
Form 8863 – Education Credits (American Opportunity and Lifetime Learning Credits)
Form 8880 – Credit for Qualified Retirement Savings Contributions

                                                                                     Page 29
                           Interim Results of the 2011 Filing Season




Form 8888 – Allocation of Refund (Including Savings Bond Purchases)
Form W-2 – Wage and Tax Statement




                                                                       Page 30
                          Interim Results of the 2011 Filing Season




                                                                               Appendix VI

                            Glossary of Terms

American            A partially refundable Federal tax credit to help parents and college
Opportunity Tax     students offset the costs of college.
Credit

Average Speed of    The average number of seconds taxpayers waited in the assistor queue
Answer              (on hold) before receiving services.

Blocked Call        A telephone call that cannot be connected immediately because either
                    no circuit is available at the time the call arrives (i.e., the taxpayer
                    receives a busy signal) or the queue is backed up beyond a defined
                    threshold (i.e., the taxpayer receives a recorded announcement to call
                    back at a later time).

Earned Income       A refundable Federal tax credit for low-income working individuals and
Tax Credit          families.

Electronic Fraud    An automated system used to maximize fraud detection at the time tax
Detection System    returns are filed to eliminate the issuance of questionable refunds.

Electronic Return   An Electronic Return Originator is the Authorized IRS e-file Provider
Originator          that originates the electronic submission of a return to the IRS. The
                    Electronic Return Originator is usually the first point of contact for most
                    taxpayers filing a return using IRS e-file.

Enterprise          The official source for all data related to toll-free telephone system
Telephone Data      measures and indicators.
Warehouse

Facilitated         Facilitated Self-Assistance is an initiative to provide self-help assistance
Self-Assistance     kiosks at Taxpayer Assistance Centers. The kiosks can be used by
                    taxpayers to access IRS.gov to file their tax returns, print tax forms and
                    publications, or conduct tax research.

Filing Season       The period from January 1 through April 15 when most individual
                    income tax returns are filed.


                                                                                        Page 31
                          Interim Results of the 2011 Filing Season




Fiscal Year          A 12-consecutive-month period ending on the last day of any month,
                     except December. The Federal Government’s fiscal year begins on
                     October 1 and ends on September 30.

Free File Program    A free Federal tax preparation and electronic filing program for eligible
                     taxpayers developed through a partnership between the IRS and the
                     Free File Alliance LLC. The Alliance is a group of private-sector tax
                     software companies.

Individual Return    Contains data transcribed from initial input of the original individual tax
Transaction File     returns during return processing.

Level of Service     The primary measure of service to taxpayers. It is the relative success
                     rate of taxpayers who call for live assistance on the IRS
                     toll-free telephone lines.

Making Work Pay      A refundable tax credit of 6.2 percent of wages. The maximum credit is
Credit               $400 for individuals and $800 for married couples.

Processing Year      Calendar year in which the return or document is processed by the IRS.

Questionable         A nationwide, multi-functional program designed to detect and stop
Refund Program       fraudulent claims for refunds on income tax returns.

Submission           The data processing arm of the IRS. The sites process paper and
Processing Site      electronic submissions, correct errors, and forward data to the
                     Computing Centers for analysis and posting to taxpayer accounts.

Tax Year             The 12-month period for which tax is calculated. For most individual
                     taxpayers, the tax year is synonymous with the calendar year.

Taxpayer             Walk-in sites where taxpayers can obtain answers to both account and
Assistance Centers   tax law questions, as well as receive assistance in preparing their tax
                     returns.

Volunteer Program    Includes the Volunteer Income Tax Assistance Program, Tax
                     Counseling for the Elderly Program, and Volunteer Income Tax
                     Assistance Grant Program. The Volunteer Program provides free tax
                     assistance to persons with low- to moderate-income (generally $40,000
                     and below), the elderly, persons with disabilities, and persons with
                     limited-English proficiency who cannot prepare their own tax returns.


                                                                                        Page 32
